U.S. Department of the Interior
Office of Inspector General




           AUDIT REPORT

 LEGISLATURE RENOVATION PROJECT,
  LEGISLATURE OF AMERICAN SAMOA,
   AMERICAN SAMOA GOVERNMENT

            REPORT NO. 98-I-653
               AUGUST 1998
              United States Department of the Interior
                             OFFICE OF IWPECTOR GESERAL
                                     Washington, D.C. 20240




Honorable Lutu Tenari S. Fuimaono
President of the Senate
Legislature of American Samoa
P.O. Box 855
Pago Pago, American Samoa 96799

Subject:    Audit Report on the Legislature Renovation Project, Legislature of American
            Samoa, American Samoa Government ( ~2. ~:-1-c’53 >

Dear Senator Fuimaono:

This report presents the results of our review of the Legislature renovation project,
Legislature of American Samoa, American Samoa Government. The objective of the audit
was to determine whether the funds for the renovation work on the Legislature buildings
were used in an efficient and effective manner and were properly accounted for and
controlled in accordance with applicable laws and regulations.

We found that the Legislature did not use funds appropriated for the renovation project
effectivyely and efficiently and in accordance with applicable laws and regulations.
Specifically, the Legislature did not procure contractor services and materials connpetitii ely
for the initial repair of the roof on the Senate and House Chambers, and it significantly
expanded the scope of the renovation project through the issuance of eight change orders
during fiscal years 1995 and 1996. In addition, the L egislature did not verify the accuracy
or reasonableness of labor and material costs claimed on contractor invoices and did not
ensure that the renov’ation work was inspected for compliance with the American Samoa
Cniform Building Code. As a result, the Legislature (1) had little assurance that it received
full value for the S1,001,638 paid for contractor services, construction materials, and
equipment; (2) paid at least S20,036 more for roofin,0 materials than was necessary; (3)
overspent project appropriations by at least S211,OX: and (4) had little assurance that the
renovated Legislature buildings were in full compliance u ith building codes.

To correct these conditions, we recommended that you, as the President of the Senate. and
the Speaker of the House of Representatives (1) develop and implement written procedures
to ensure that all procurements are made in accordance with the American Samoa Code
Annotated; (2) amend the Rules of both the Senate and House to establish a joint committee
for the purpose of periodically identifyin,0 the renovation and repair needs of the
Legislature’s facilities; (3) request that the Director of the Department of Public Works
review the most recent invoice submitted by the contractor to determine whether it is
reasonable and reflects the costs incurred by the contractor for the renovation of the Senate
and House Chambers; (4) amend the Rules of both the Senate and House to require all
Legislature renovation and construction work to be managed and inspected by the
Department of Public Works; and (5) request that the Director of Public Works inspect the
renovated Legislature facilities to determine whether the construction work is in compliance
with the American Samoa Unifoml Building Code.

In the July 10,1998, response (Appendix 4) to our draft report from the Speaker of the House
of Representati\*es, the Legislature concurred with three recommendations (SOS. A. 1, B. 1,
and B.2) and nonconcurred with two recommendations (Yes. B.3 and B.4). Based on the
response, we consider Recommendations A. 1, B. 1, and B.2 resolved but not implemented.
Accordingly, these three recommendations will be referred to the Assistant Secretary for
Policy, Management and Budget for tracking of implementation. Although the Legislature
nonconcurred kvith Recommendations B-3 and B.4, the Legislature sufficiently addressed the
intent of the recommendations. However, additional infomlation is needed for these
recommendations (see Appendix 5).

The Inspector General Act, Public Law 95-452, Section 5(a)(3), as amended, requires
semiannual reporting to the U.S. Congress on all audit reports issued, the monetary impact
of audit findings (Appendix l), actions taken to implement audit recommendations, and
identification of each significant recommendation on which corrective action has not been
taken.

In view of the abo\.e, please provide a response, as required by Public Law 97-357, to this
report by September 30. 1998. The response should be addressed to our Pacific Office. 115
Chalan San Antonio, Baltej Pavilion, Suite 306, Tamuning. Guam 96911. The response
should provide the information requested in Appendix 5.

LV’e appreciate the assistance of officials of the American Samoa Legislature in the conduct
of our audit.

                                              Sincerely,




                                              Acting Inspector General
                                                                          N-IN-A&IS-006-97


              United States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL
                                     Wahington, DC. 20210




Honorable Mailo Sao T. Nua
Speaker, House of Representatives
Legislature of American Samoa
P.O. Box 485
Pago Pago, American Samoa 96799

Subject:   Audit Report on the Legislature Renovation Project, Legislature of American
           Samoa, American Samoa Government (1;: ?:-I-CS? ) l




Dear Speaker Nua:

This report presents the results of our re\*iew of the Legislature renovation project,
Legislature of American Samoa, American Samoa Go\.emment. The objective of the audit
was to determine whether the funds for the renovation work on the Legislature buildings
were used in an efficient and effective manner and were properly accounted for and
controlled in accordance with applicable laws and regulations.

We found that the Legislature did not use funds appropriated for the renovation project
effectively and efficiently and in accordance with applicable laws and regulations.
Specifically, the Legislature did not procure contractor services and materi;ils competitively
for the initial repair of the roof on the Senate and House Chambers, and it significantly
expanded the scope of the reno\wation project through the issuance of eight change orders
during fiscal years 1995 and 1996. In addition, the Legislature did not verify the accuracy
or reasonableness of labor and material costs claimed on contractor in\*oices and did not
ensure that the renovation work was inspected for compliance with the American Samoa
C’nifonn Building Code. As a result, the Legislature (1) had little assurance that it received
full \*alue for the Sl,OOl,638 paid for contractor services, construction materials, and
equipment; (2) paid at least S20,036 more for roofin,0 materials than was necessary; (3)
ovsrspent project appropriations by at least S2 1 1,025; and (3) had little assurance that the
renovated Legislature buildings were in full compliance with building codes.

To correct these conditions, we recommended that you, as the Speaker of the House of
Representatives, and the President of the Senate (1) de\-elop and implement written
procedures to ensure that all procurements are made in accordance li ith the American Samoa
Code Annotated; (2) amend the Rules of both the Senate and House to establish a joint
committee for the purpose of periodically identifying the renovation and repair needs of the
Legislature’s facilities; (3) request that the Director of the Department of Public Works
re\.iew the most recent invoice submitted by the contractor to determine whether it is
reasonable and reflects the costs incurred by the contractor for the renovation of the Senate
and House Chambers; (4) amend the Rules of both the Senate and House to require all
Legislature reno\.ation and construction work to be managed and inspected by the
Department of Public Works; and (5) request that the Director of Public Works inspect the
renovated Legislature facilities to determine whether the construction work is in compliance
with the American Samoa Uniform Building Code.

In the July 10, 1998, response (Appendix 4) to our draft report from you, as the Speaker of
the House of Representatives, the Legislature concurred with three recommendations (Nos.
A. 1, B. 1, and B-2) and nonconcurred with two recommendations (Nos. B.3 and B.4). Based
on the response. we consider Recommendations .A. 1, B.l, and B.2 resolved but not
implemented. Accordingly, these three recommendations will be referred to the Assistant
Secretary for Policy, Management and Budget for tracking of implementation. Although
the Legislature nonconcurred with Recommendations B.3 and B.4, the Legislature
sufficiently addressed the intent of the recommendations. However, additional information
is needed for these recommendations (see Appendix 5).

The Inspector General Act, Public Law 95-452, Section 5(a)(3), as amended, requires
semiannual reporting to the U.S. Congress on all audit reports issued, the monetary impact
of audit findings (Appendix 1), actions taken to implement audit recommendations, and
identification of each significant recommendation on which corrective action has not been


In view of the above, please provide a response, as required by Public Law 97-357, to this
report by September 30, 1998. The response should be addressed to our Pacific Office, 415
Chalan San Antonio, Baltej Pa\.ilion, Suite 306, Tamuning, Guam 96911. The response
should provide the infomlation requested in Appendix 5.

We appreciate the assistance of officials of the American Samoa Legislature in the conduct
of our audit.

                                              Sincerely,
                                                      I


                                                  ;_c. ‘“C / ‘ 3
                                                           /
                                                _--            /



                                             Richard X Reback        “’
                                             Acting Inspector General
                                                   CONTENTS

                                                                                                                           Page

INTRODI_TCTIO~ . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       1

          BACKGROCXD   ................................................ 1
          OBJECTIVE AND SCOPE ........................................ 2
          PRIOR AUDIT COVERAGE ...................................... 2

FISDKGS AXD RECOMMEND.4TIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                             3

          ‘4. PROCCREMENT ............................................ 3
          B. PROJECT PLAXXING 14XD MANAGEMENT .................... 7

APPEXDICES

           1. CLASSIFICATION OF MONETARY AMOUXTS . . . . . . . . . . . . . . . . . . 14
          _’ . STATUS OF FUKDS FOR THE LEGISLA4TCXE RESOK4TION
               PROJECT - OCTOBER 31, 1994, TO OCTOBER 31, 1997 . . . . . . . . . . . 15
          3. SCOPE AXD COST OF WORK FOR THE LEGISLATIXE
               RENOVATION PROJECT - OCTOBER 3 1, 1994, TO
               0CTOBER31,   1997     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
          3. LEGISLATURE OF AMERICAX SAMO_\ RESPONSE . . . . . . . . . . . . . 17
          5. STATUS OF AUDIT REPORT RECOMMEXD,4TIONS . . . . . . . . . . . . .26
                                        INTRODUCTION

BACKGROUND

The Legislature of -4merican Samoa was established by the Constitution ofAmerican Samoa
as the third branch of the American Samoa Government. The Legislature has an 1 g-member
Senate and a 2 1 -member House of Representatives. Cinder Section 10.0603 of the American
Samoa Code Annotated, the Legislature has full authority and control over the request,
approval, and disbursement of funds in its budget. However, Section 12.0208 of the
American Samoa Code Annotated requires that the Legislature procure all supplies,
equipment, and construction services through the Executive Branch’s Procurement Office,
which is the central procurement agency for the American Samoa Government. Both the
Senate and the House of Representatives have their own Rules, ii hich govern their internal
operations. Under the respective Rules, the Presidsnt controls the operations of the Senate
and the Speaker controls the operations of the House of Representatives. The overall fiscal
operations of the Legislature are managed by the Legislative Financial Officer, whose
position was established by Section 2.0601 of the American Samoa Code Annotated.

The I_egislature is housed in three buildings that were constructed in 1972: the Senate and
House Chambers, which includes the administrative offices; the Senate Office Building,
which has individual offices for each of the Senators; and the House Office Building, which
has individual offices for each of the Representatives. In addition, there are two auxiliary
buildings that are used for meetings and social functions of the Legislature: one referred to
as the Guest Fale’ and the other referred to as the House Coffee Fale. ,411 of ihe buildings
except the Guest Fale are connected by a series of covered walbvays.

Since 1991, the roofs of all of the buildings in the Legislative complex have needed to be
repaired as a result of damage sustained from two hurricanes. Accordingly, the Legislature’s
fiscal year 1995 budget provided a S300,OOO appropriation to repair the roof of the Ssnate
and House Chambers. In October 1994, the former President of the Senate and the former
Speaker of the House requested that the Chief Procurement Officer for the American Samoa
Government waive the bidding requirements and allow the award of a sole source contract
to replace the shingles on the roof of the Senate and House Chambers. The justification for
the waiver stated that the roof needed to be repaired before the first session of the
24th Legislature was conL.ened on Januaq 9, 1995.

Pursuant to a declaration of emergency issued by the Go\-emor, the sole source selection of
a contractor was approved, with an initial contract of S?S,OOO. The roofing contractor was
to proi’ide the labor and equipment, and the building materials were to be purchased through
the Procurement Office. Although contractor payments had to be processed through the
Procurement Office, the Legislature performed the construction management functions of
directing the contractor’s work, approving invoices? and initiating contract change orders.


’ "Fale"   (pronounced fu ‘-lee) is the Samoan word for house.

                                                      1
After the roof repairs were started, the Legislature changed the scope of work because the
contractor had determined that the beams supporting the roof needed to be replaced and the
Legislature added other unplanned work on the other buildings in the complex. As of
October 3 1, 1997, funding for the project had been increased from S300,OOO to S 1,4 15,000
and expenditures totaled S 1,626,025, for a cost overrun of S2 1 1,025 (see Appendix 2).

OBJECTIVE AND SCOPE

The objective of the audit was to determine whether funds for the renovation work on the
Legislature buildings were used in an efficient and effective manner and were properly
accounted for and controlled in accordance with applicable laws and regulations. To
accomplish our objective, we interviewed officials and reviewed applicable reno\.ation
project financial and administrative records at the American Samoa Legislature, Procurement
Office, Office of the Treasurer, Department of Public Works, and Archive Office. We also
interviewed contractor personnel concerning the renovation project. Our review co\-*ered the
period of October 1994 through October 1997. However, because the Legislature’s
accounting records were incomplete, we were unable to specifically match expenditures for
materials purchased through the Procurement Office to specific work perforrned during the
renovation project.

The audit was made, as applicable, in accordance with the “Government Auditing
Standards,” issued by the Comptroller General of rhe United States. Accordingly, we
included such tests of records and other auditing procedures that were considered necessary
under the circumstances.

As part of the audit, we evaluated accounting and management controls over appropriations,
expenditures, and construction management. We found major internal control weaknesses
in all three areas. The internal control weaknesses are discussed in the Findings and
Recommendations section of this report. Our recommendations, if implemented, should
improve the internal controls in these areas.

PRIOR AUDIT COVERAGE

During the past 5 years, the General Accounting Office did not issue any audit reports
pertaining to the American Samoa Legislature. However, in March 1996, the Office of
Inspector General issued the audit report “_4merican Samoa Legislature, American Samoa
Go\-smment” (So. 96-I-533). \f hich stated that the Legislature had not procured goods and
senices competitively. During our current review. we found that the Legislature had
developed written procurement procedures but that the draft procedures \f.ere not sufficiently
detailed to ensure that the Legislature complied with the procurement requirements set forth
in the American Samoa Code Annotated.
                FIYDINGS AND RECOM;llENDATIONS

A. PROCUREMENT

The Legislature did not procure contractor services and materials for the renovation project
competitively. Specifically, the Legislature improperly procured the services of a roofing
contractor by using emergency procurement provisions of the American Samoa Code
,4nnotated and bypassed the Procurement Office by procuring roofing materials directly from
a vendor on a sole source basis. These conditions occurred because the Legislature did not
have adequate written procedures to ensure that contractor sen.ices and materials were
procured in accordance with the ,4merican Samoa Code Annotated. 4s a result, the
Legislature had little assurance that it received full value for the S244,275 paid for contractor
services related to the roof repair contract (see Appendix 3). Additionally, the Legislature
paid $20,036 more than was necessary for roofing materials.

Contractor Services

Based on our review of the Legislature’s renovation project records? we determined that the
Legislature had been aware, since 199 1, that the roofing shingles and the supporting beams
of the Senate and House Chambers needed to be replaced. However, funding for the repairs
was not appropriated until fiscal year 1995, when the Legislature’s budget included a
S300,OOO appropriation for roof repairs. The appropriation act stated that the funds were
needed to repair the roof of the Senate and House Chambers to preL.snt further damage to the
structure. In an October 19, 1994, letter to the Chief Procuremsnt Officer, the former
President of the Senate and the fomler Speaker of the House for the 24th Legislature
requested a wai\-er of the American Samoa Procurement Rule’s competitive bidding
requirements for hiring contractors and stated that the scope of the required work would be
limited to replacing the roofing shingles. The former President and the former Speaker stated
in their letter that the “building desperately needed a reroofing job since 1991 .‘I The letter
also stated that the repairs needed to be completed by the end of December 1994 and that the
work should begin immediately to prevent any further damage to the building’s roof and
interior. The Legislative Financial Officer told us that the Legislature informally polled
contractors and had identified a contractor who would replace the shingles for S78,OOO.

As a result of the former President’s and fomler Speaker’s request for a waiver, the Gol*ernor
of .tilsrican Samoa intenvened and directed the Chief Procurement Officer, on November 4,
1994, to treat this procurement as an emergency procurement as authorized by Section
12.0213 (“Emergency Procurement”) of the American Samoa Code Annotated. The
Governor’s inten.ention allowed the Chief Procurement Officer to issue a sole source
contract to the contractor selected by the Legislature for labor and equipment needed to make
the repairs. The Governor also directed the Procurement Office to procure all materials
needed for making the roof repairs. On October 3 1,1994, a sole source contract for S78,OOO
was issued to the roofing contractor to replace the shingles, with a completion date of
March 3 1, 1995. However, because of technical flaws found (for example, the contract was

                                               3
not signed by the Chief Procurement Officer, and Public Works was incorrectly shown as
the “Architect/Engineer”) in the original contract, a new contract was executed on
December 5, 1994. On November 14, 1994, the contractor began making the roof repairs.
Once the contractor remoi-ed the old shingles and exposed the rotted supporting beams. the
contractor advised the former President that the beams I\ ould have to be repaired or replaced
before the new shingles could be installed. As a result, Contract Change Order 001 naas
issued on July 20, 1995, for $166,275 to cover the additional work, and the project
completion date was extended to August 3 1, 1995.

In our opinion, the use of sole source emergency procurement procedures for the roof repair
contract was not proper. Section 12.02 13 of the American Samoa Code Annotated states,
“[T]he Governor may make or authorize a governmental agency to make emergency
procurements when there exists a threat to public health. welfare. or safety under emergency
conditions . . . . [but that] [a]n emergencyM procurement must be competitive as practicable
under the circumstances.” However, the roof of the Senate and House Chambers had been
leaking water since 1991, and its deteriorated condition was not the result of a sudden or
emergency situation but the result of the roof not being repaired in 199 1, when the problem
was first detected. In addition, the Legislative Financial Officer told us that each year since
199 1, the Legislature had to replace portions of the interior ceilings of the Senate and House
Chambers because water leaking through the roof collected on top of the ceiling and then
caused parts of the ceiling to fall down. Further, based on a listing of licensed contractors
maintained by the Department of Public Works, we detemlined that at least four other local
contractors were capable of repairing the roofof the Senate and House Chambers. Therefore,
we believe that the procurement of contractor services should ha\-e been made competiti~.ely.

Roofing Materials

At the beginning of the renovation project, the Procurement Office had requested price
quotations from vendors for materials that were needed to repair the roof of the Senate and
House Chambers. On November 10, 1994, the Procurement Office issued a purchase order
to the lowest bidder in the amount of $66,680. However, the Legislature had ordered
identical roofing materials on October 26, 1994, directly from the highest bidder at a cost of
S86,7 16, thus bypassing the Procurement Office.

In accordance with Section 12.0208 of the .\merican Samoa Code Annotated. the Chief
Procurement Officer is the central procurement official for the American Samoa Go~*ernmsnt
and is responsible for procuring all construction goods and services for the Go\.emmsnt.
Therefore, the Legislature had no authority to purchase materials directly from vendors.
When the Chief Procurement Officer learned that the Legislature had purchased the roofing
materials, he wrote a letter, dated January 12, 1995, to both the fomler President of the
Senate and the fomler Speaker of the House in which he stated, “>Iay~ I remind you that this
office [Procurement Office] has done its part in procuring these materials in accordance 1~ ith
the law and any material deli\.ered by any supplier is an illegal procurement and ASG
[American Samoa Government] is not obligated to pay.” HOU e\-er, because of the
subsequent expansion of the renovation project, the roofing matsrials ordered by the

                                              3
Legislature were also needed. Thus, the Procurement Office, at the direction of the
Governor, paid the second invoice for roofing materials in the amount of S86,7 16, which was
S20 036 higher than the cost of the identical roofing materials purchased by the Procurement
Offi’ce using competitive procurement procedures.

During the audit, we detemlined that the Legislature had prepared draft procurement
procedures in response to our March 1996 audit report “American Samoa Legislature,
American Samoa Government” (?;o. 96-I-533). Howe\*er, we determined that the draft
procedures provided only general instructions and did not include sufficient details to ensure
that all procurement actions would be processed in accordance with the American Samoa
Code ‘4nnotated. The draft procedures did not speci@ the forms to be used, the internal
document flow, and the required approvals and did not include a requirement that all
procurement actions should be processed by the Procurement Office. To reso1L.e this
deficiency, we believe that the Legislature should develop detailed written procedures to
ensure that all procurements are conducted in accordance with the requirements set forth in
the American Samoa Code Annotated.

Recommendation

We recommend that the Legislature of American Samoa develop and implement detailed
written procedures to ensure that all procurements are made in accordance with the American
Samoa Code ‘4nnotated. The procedures should specify, the forms to be used, the internal
document flow, and the required approvals and include a requirement that all procurement
actions should be processed by the Procurement Office.

Legislature of American Samoa Response and Office of Inspector General
Reply
In the July 9, 1998, response (Appendix 4) to the draft report from the Speaker of the House
of Representatives, the Legislature concurred with the recommendation and pro\-ided
additional comments to support its actions during the renovation. Based on the response, we
consider the recommendation resolved but not implemented (see Appendix 5).

       Legislature of American Samoa Response. The Legislature stated:

       On the contrary [to the audit report], the Legislature fully enjoys its new11
       renovated buildings. It has provided a safe and better working en~ironmsnt
       for everyone. The project also adds another 5 to 10 years of useful life to
       these old deteriorated buildings. It further removes an emotional and
       physical hardship experienced by Legislature leaders because of damages
       sustained from these leaky buildings, which are over 20 years old.

The Legislature also stated that once the contractor had removed the “rotten shingles” to the
Senate and House Chambers building and the “rotted beams” were exposed, the Legislature
was “forcsd” to issue a series of change orders and appropriate more funds to cowr the

                                              5
 additional work. Further, the Legislature stated that the former President of the Senate’s
decision to renovate the existing Legislature buildings as opposed to building new facilities
justified the Govemor’s use of the Emergency Procurement provisions of the ‘4rnerican
 Samoa Code. The Legislature also stated that the purchase of shingles by the former
Speaker was the result of a “verbal mis-communication” between the former Speaker and the
Governor but that the additional shingles “turned out in favor of the Legislature” because
the scope of the work was subsequently expanded to include the roofs of other Legislature
buildings and the additional shingles were used for that purpose.

         Office of Inspector General Reply. Contrary to the inference that the audit ignored
the need for repairs to the Legislature’s buildings, our report takes issue not with the need
for the repairs but with the manner in which the repairs were planned and the project was
expanded to cover other facility repairs. If the project had been properly planned from its
beginning, with consideration for all necessary repairs instead ofjust the roof repairs to one
building, the construction services could ha\.e been procured using competitive procurement
procedures that we believe would ultimately ha1.e saived American Samoa Goi-emment
funds.

We found that the presence of rotten beams was identi iled as a problem by key Public Works
personnel and the roofing contractor before any of the old shingles were removed. For
example, a Department of Public %‘orks architect stated that during an inspection of the
Senate and House Legislative Chambers in 1992, he was able to “poke holes” in the beams
and that it was clear that the beams ivould have to be repaired. Also, the roofing contractor
stated in a April 5, 1995, letter to the President of the Senate. “It was evident at the start of
the project that satisfaction of contract conditions would be impossible without repairing the
beams.” E\.en though the exact scope of beam replacement that w.ould be required u-as not
known, we believe that the Legislature should have anticipated that the repair of the roof
would require more extensi\-.e work than just the replacement of the shingles. As such, a
request for bids covering both the replacement of the shingles and the beams could ha\-e been
processed through the Procurement Office as one complete job.

Regarding the “emergency procurement, ” the Legislature’s October 19, 1994, letter to the
Chief Procurement Officer requesting an exception to the bidding process stated that the
Senate and House Chambers building “desperately needed a roofing job since 199 1,” but it
did not reference a need to reno\.ate all of the Legislature buildings. In addition, the
Go\-ernor’s letter to the Chief Procurement Officer in\*oking the emergency procurement
provisions makes reference only to the need to re-shingle the Ssnate and House Chambers
building. i\ith no reference, direct&* or indirectly, to a scope of \vork that included roofing
or renovation work for other Legislature buildings.

Lastly, we disagree \\ith the Legislature’s conclusion that the duplicate order of shingles was
fa\*orable to the Legislature. Although the contractor u as able to use the duplicate materials,
we do not believe that the purchase of roofing materials at a cost of S20,026 more than the
price obtained through the Procurement Office can be interpreted as being favorable to the
Legislature. In addition, an order for roofing materials for the entire project could have been
placed with the lowest bidder.

                                               6
B. PROJECT PLANXING AND MANAGEMENT

The Legislature did not effectively plan for and manage the expansion of the renovation
project. Specifically, the Legislature (1) undertook a major renovation of the Legislature’s
buildings ibithout identifyin g the required scope of work, estimating project costs, and
determining funding needs; (2) did not verify the accuracy of contractor billings; and (3) did
not ensure that the contractor’s work was inspected. These conditions occurred because the
Legislature did not have written policies and procedures to ensure that renovation projects
were adequately planned and managed. As a result, the Legislature noncompetitively
procured contractor services costin g S757,363; overspent appropriated funds by at least
S211,025; and had little assurance that contractor billings totaling S1,474,734 for labor,
equipment, and materials were correct and that the construction work was performed in
accordance with building codes.

Project Planning

The Legislature did not adequately plan for the renovation of the Legislature buildings.
Specifically, the Legislature expanded the scope of work after the initial noncompetitive
roofing contract was issued through a series ofcontract change orders and appropriated funds
to cover the additional work. This occurred because the Legislature (1) did not have written
procedures for identifying the maintenance and renovation needs of its facilities, estimating
the associated costs, and determining funding needs and (2) did not obtain technical
assistance from the Procurement Office and Department of Public N’orks, which had the
technical expertise needed to adequately plan for the renovation project. As a result. the
Legislature expended $757,363 for contractor services (see Appendix 3) with little assurance
that it recei\.ed full value for the funds expended and overspent project appropriations by at
least S2 11,025 (see Appendix 2).

The -American Samoa Procurement Act of 1983 (Title 12, Chapter 2, of the American Samoa
Code Annotated) and the Procurement Rules require the Chief Procurement Officer to
procure all construction services for the American Samoa Go\-ernment. However, after the
Go\*ernor authorized the use of emergency procurement procedures for the initial sole source
contract to repair the roof of the Senate and House Chambers and instructed the Procurement
Office to procure all construction materials needed for the project as requested b>. the
Legislature Financial Officer, the Procurement Office’s role in the renovation project i\aas
limited primarily to determining ~vhether the Legislature had encumbered sufficient funds
before approving payment of contractor invoices.

During the period of September 25, 1995, through August 22,1996, the former President and
the former Speaker expanded the stops of the noncompetitive roofing contract (as amended
by Contract Change Order 001, dated July 20,1995) through the issuance of seven additional
contract change orders, totaling S732,888 (see Appendix 3). The change orders included
work for replacing shingles on the roofs of the Senate Office Building, the Guest Fale. the
House Coffee Fale, and covered walkways between the Legislature buildings and for
replacing the exterior and interior walls of the Guest Fale and the Senate and House
 Chambers and portions ofthe Senate Office Building. However, according to the contractor,
 none of this additional work was discussed ivith him when he was asked to submit the initial
 proposal to replace the shingles on the Senate and House Chambers. In addition to the seven
 contract change orders, the current Speaker noncompetitively procured the services of
 another contractor to renovate the interior of the House Coffee Fale and the restrooms in the
 House Office Building at a cost of S22,750. Therefore, the total amount of noncompetitive
 procurements for renovation work beyond the original scope of the project to repair the roof
 ofthe Senate and House Chambers was $757,363. The contract change orders are discussed
 in the paragraphs that follow.

         Change Orders 002 and 003. While the contractor was repairing the roof of the
Senate and House Chambers (see Finding A), the former President directed the contractor
to start repairing the roofs of both the Guest Fale and the Senate Office Building. This
resulted in the issuance, on September 25, 1995, of Contract Change Order 002, in the
amount of S53,OOO.’ Subsequently, the roof repairs to the Guest Fale and the Senate Office
Building de\-eloped into a complete renovation of the Guest Fale and portions of the Senate
Office Building. As a result, on December 6, 1995, the Legislature issued Contract Change
Order 003, in the amount of S67,000, for the renovation of the interior and exterior of the
Guest Fale and the Senate Office Building. The Legislative Financial Officer told us that,
although the roofs of both the Guest Fale and the Senate Office Buildings leaked, he “had
no idea” that the fomler President and fomler Speaker wanted to perform a renovation of this
magnitude.

        Change Order 004. The fomler President and the fomler Speaker further expanded
the renovation of the Legislature buildings through the issuance, on January 3 1, 1996, of
Contract Change Order 004. Specifically, this change order authorized, at a total cost of
S 19,888, the replacement of the roof of the nalkTvays behveen the Legislature buildings and
the renovation of the restrooms and the coffee room in the Senate Office Building.

         Change Orders 005 Through 008. In Januq 1996, the former President and the
fomler Speaker requested that the Department of Public Works prepare an estimate of the
cost to renovate the interior and exterior (excluding the roof) of the Senate and House
Chambers. Although Public Works submitted a cost estimate in March 1996 for S529,700,
the Legislature paid the contractor a total of S603,OOO for the renovation work. ‘4s the
contractor submitted invoices for the renovation work, the Legislature encumbered funds to
pay the inj.oices through the issuance of Contract Change Orders 005,006,007, and 008, for
a total of S603,OOO. In addition, on December 11, 1996, the contractor submitted another
in\.oice for S395,846 for further work that \\ as performed on the interior and exterior of the
Senate and House Chambers, thus bringing the total cost of this phase of the renoi-ation
project to S 1,098,846. However, the Legislature did not issue a contract change order for this




‘Although Contract Change Order 002 was executed in the amount of S53,000, the contractor’s invoices for
\vork under this change order totaled $34,725.

                                                   8
final invoice, and, as of March 17, 1998, the Procurement Office had not paid the contractor
S395,8363 of the S195,846 shown on the invoice.

          Cost O\-errun. As a result of the unplanned escalation of work through the
Legislature’s verbal authorization of additional work and subsequent issuance of contract
change orders, the appropriations for the renovation project were overexpended by S2 11,025.
Section 10.0601 of the American Samoa Code Annotated prohibits the overexpenditure of
appropriations and provides that such overexpenditures could result in disciplinary action or
possible legal prosecution against the offenders. Our March 1996 audit report “American
Samoa Legislature, American Samoa Gol,ernment” (No. 96-I-533) identified the
overespenditure of appropriations as a continuing problem and reported that Legislature
officials stated that the overexpenditures occurred because the Government’s accounting
system did not provide timely expenditure information. Although deficiencies in the
accounting system may have contributed to the overexpenditure of appropriations for the
renovation project, we believe that the primary cause of the overexpenditures was that the
Legislature did not adequately plan for and control the project by (1) identifying and
prioritizing the full scope of repair and renovation work needed, (2) preparing realistic cost
estimates, (3) appropriating funds based on the planned work, and (4) monitoring and
controlling the project through the contract.

As a result of not adequately planning for the renovation project, the Legislature did not have
cost estimates that could be used to detemline the amount of funding that would be needed
for the project. Consequently, as of the end of fiscal years 1995, 1996, and 1997 and as of
October 3 1, 1997. the renovation project had cost overruns of S52.187. S320,974, S 132.24 1,
and S211,025, respectively (see Appendix 2). In addition, if the contractor is paid the
S395,846 balance due (S495,846 minus the S 100,000 advance payment) on the December 11,
1996, invoice, the renovation project will have a total cost overmn of S606,871.

Project Management

The Legislature did not verify the accuracy of charges shown on invoices submitted by the
contractor and did not ensure that the contractor’s work was inspected by the Department of
Public Works to detemline whether the construction work u-as in compliance with the
American Samoa Uniform Building Code. These conditions occurred because the
Legislature did not have adequate written procedures for \-erifying the costs shown on vendor
imoices and ensuring that construction work was inspected by the Department of Public
Works. As a result, the Legislature had little assurance that contractor billings totaling
S 1,4X,733 for materials, equipment, and labor were proper; that the buildings I\ ere safe for
occupancy; and that the construction work was in compliance with building codes.



‘On September 23, 1997, the contractor requested the Go\emor to provide a partial payment of $100.000
because of the contractor’s “financial hardship. ” The Governor approved the contractor’s request on the
same day. Hoivel,er, because the American Samoa Government leas experiencing a cash shortage. the
contractor was paid $50,000 on September 25, 1997, and an additional $50,000 on October 31, 1997.

                                                  9
Cinder the temls of the initial contract, the contractor was to provide only labor and
equipment, and the Procurement Office was responsible for procuring the construction
materials. However, because of delays in procuring materials for later phases of the
renovation project through the Procurement Office, on March 7, 1996, the Go\*emor
authorized the contractor to purchase construction materials directly from vendors and bill
the Legislature. However, based on our review of the contractor’s invoices, we found that
(1) the contractor typically showed on the invoices only a total dollar amount, with no
detailed infomlation regarding the labor, equipment, and materials used on the renovation
project, and (2) the Legislature typically approved contractor invoices for payment without
question and without verification of the amounts billed by the contractor.

During the period of December 5, 1994, through December 11, 1996, the Legislature
received from the contractor 2 1 int.oices,j totaling S 1,474,734. ‘Ct’e examined all 2 1 in\,oices
to detemline whether the amounts claimed by the contractor for labor, equipment, and
materials were adequately supported. We found that none ofthe invoices provided sufficient
information to permit the Legislature to detemline whether the charges shown on the
invoices were proper. Specifically, the descriptions of charges on 20 of the 2 1 invoices were
shown in general temls such as “labor” (4 invoices, totaling S68,OOO); “labor and equipment”
(5 invoices, totaling 5122,000); “labor, equipment, and materials” (5 invoices, totaling
$185,888); and “labor and materials” (6 invoices, totaling S603,OOO). Although the
description of charges shown on the December 11, 1996, invoice for S395,846 provided
more information than the other 20 invoices, the description. in our opinion, did not provide
sufficient infomlation to allow the Legislature to determine whether the charges were
reasonable. In addition, there was no evidence in the files to show that the Legislature
questioned or attsmpted to serif>. the accuracy of the invoices before payment \f.as approved.
For example:

        - The contractor submitted to the Legislature an imoice dated February 21, 1996,
for 960,000 for “labor and materials.” Although the construction materials included in this
invoice were purchased by the contractor before the Governor authorized the contractor to
purchase materials for the renovation project, the Legislature approved the invoice without
determining why the contractor purchased the materials, what materials had been purchased,
and whether the labor charges liere reasonable.

      - The contractor submitted an invoice dated -May 6. 1996, for S80,OOO for “labor
and materials.” However, the Legislature did not require the contractor to provide
documentation to support the amount of labor and material charges shown on the in\,oice.

Because the Legislature did not 1lai.e project management expertise, the contractor was
allowed to perform renovation M ork, including structural repairs, plumbing, and electrical
work, without any assurance that the work was in compliance with the American Samoa


‘The 21 invoices consisted of 6 invoices for the initial contract to repair the roof of the Senate and House
Chambers; 14 invoices for Contract Change Orders 001 through OclS: and the in\,oice submitted by the
contractor on December 11, 1996, for $195,846.

                                                    10
Uniform Building Code. Title 26, Section 1004, of the American Samoa Code Annotated
states that the Department of Public Works is responsible for monitoring all public and
private sector construction, including building renovations, to ensure compliance with the
Unifoml Building Code. However, we found that the Legislature did not have any written
procedures to ensure that construction work was inspected by the Department of Public
Works.

In our opinion, the problems identified with the renovation project could have been avoided
if the Legislature had deiveloped adequate written procedures for identifying the complete
scope of renovation work needed, planning the work, estimating project costs, and
detemlining funding needs. In addition, we believe that the Legislature should form a
committee responsible for determining the future renovation and repair work needed by all
of the Legislature’s facilities and for preparing periodic reports which describe the work that
should be performed, including tentati\,e schedules and estimated costs. The committee
should also be required to obtain assistance from the Department of Public Works in
determining renoiration and repair needs, assisting in the preparation of the reports, and
conducting project inspections during construction work.

Recommendations

We recommend that the Legislature of American Samoa:

              1. Request the Director of the Department of Public Works and the Chief
Procurement Officer to re\.iew the December 1 l9 1996, invoice for S395,836 submitted by
the contractor to determine whether it is reasonable and reflects the costs incurred by the
contractor for the renovation of the Senate and House Chambers. If information on the
invoice is not adequate, additional infomlation should be requested from the contractor to
make such a determination.

             2. Request the Director of the Department of Public Works to perform an
inspection of the renovated Legislature facilities and determine whether the construction
work was in compliance with the American Samoa Uniform Building Code. If the
Department of Public Works determines that the construction work was not in compliance
with the Code, the contractor should be required to correct the noted deficiencies.

              3. Amend the Rules of both the Senate and the House of Representatives to
establish a joint standing committee for the purpose of periodically identifying the
Legislature’s reno\.ation and repair needs, developing annual cost estimates for the planned
work, and determining funding needs and sources.

             4. Amend the Rules of both the Senate and the House of Representatives to
require that all future Legislature renovation and construction work be managed and
inspected by the Department of Public Works and that the Legislature obtain technical
assistance from the Procurement Office during the design and contracting phases of
construction projects.

                                              11
Legislature of American Samoa Response and Office of Inspector General
Reply

In the July 9, 1998, response (Appendix 4) to the draft report from the Speaker of the House
of Representatives, the Legislature concurred with Recommendations 1 and 2 and
nonconcurred uith Recommendations 3 and 4. The Legislature also espressed disagreement
with some of the statements contained in the finding. Based on the response, we consider
Recommendations 1 and 2 resol\.ed but not implemented and request that the Legislature
provide additional information for Recommendations 3 and 1 (see Appendix 5).

Recommendation 3. Nonconcurrence.

         Legislature of American Samoa Response. The Legislature did not concur with
our recommendation to establish a joint standing committee of the Senate and the House to
periodically review and report on the maintenance and renovation needs of the Legislature’s
facilities. Instead, the Legislature stated that this oversight function could be more
effectively administered by the Legislative Financial Officer.

        Office of Inspector General Reply. We consider the Legislature’s suggestion of
having the Legislative Financial Officer, rather than a standing committee of the Senate and
the House, maintain oversight of the renovation and repair needs of the Legislature to be an
acceptable alternative corrective action. Therefore, the Legislature should provide the
additional information requested in Appendix 5.

Recommendation 4. Nonconcurrence.

         Legislature of American Samoa Response. The Legislature did not concur with
our recommendation to amend the Rules of both the Senate and the House to require the
Department of Public Works to manage and inspect all renovation and construction work on
Legislature’s buildings. The Legislature stated that since managing and inspecting all
renokration and construction work on the buildings was already required by existing law, it
would be more appropriate to include these duties as part of the procedures to be developed
in response to Recommendation A. 1.

        Office of Inspector General Reply. We consider the Legislature’s suggestion of
including the requirement that the Department of Public Works should provide supenision
and inspection of renovation and construction work on Legislature buildings in the
procedures to be developed in response to Recommsndation A. 1, rather than in the Rules of
the Senate and the House, to be an acceptable alternative c0r-rectik.e action. Therefore. the
Legislature should provide the additional information requested in Appendix 5.

General Comments on Finding

In its response to the draft report, the Legislature stated that it is “somewhat misleading” to
criticize the Legislature for expanding the renovation project. The Legislature also st‘jted

                                              12
that the S1.6 million cost was justified because the Legislature buildings were restored to
their “original building features.” In addition, the Legislature stated that the project was
implemented with little adk,ance planning but that a “desperate effort” was needed to save
the Legislature buildings. Lastly, the Legislature included in its response a schedule showing
that appropriations for the renovation project were o\.srespended by only S90,759.

We do not agree that obtaining the services of a contractor under the emergency procurement
provisions of the American Samoa Code to re-shingle the roof of the Senate and House
Chambers justifies the expansion of the project to include major renovation work on other
Legislature buildings. Further, because the Legislature stated that the Legislature facilities
received extensive damage from two hurricanes in the “early 90s” and the Legislature’s
October 19, 1994, letter to the Chief Procurement Officer stated that the “building
desperately needed a reroofing job since 1991 ,I’ we be1isi.e that sufficient time existed, prior
to October 1994, for the Legislature to properly plan for the overall project and procure the
needed contractual services using competitive procedures. Additionally, once the full extent
of the necessary repair work was detennined, even after the October 1994 letter, the
Legislature could have taken action to procure contractual sen-ices for the entire expanded
scope of the project on a competitive basis rather than expanding the project on a piecemeal
basis through contract change orders.

With regard to the Legislature’s schedule that it said shows “total alleged, supposed
overexpenditures” of S90,759 for the renovation project, the Legislature’s computations are
incorrect in that the schedule (1) uses the original contract change order amounts, which
totaled S8,275 more than the amounts actually paid to the contractor, and (2) does not
include the S524.387 cost of construction materials pur chased by the Procurement Office on
behalf of the Legislature. A year-by-year summacr of the appropriations and actual
expenditures related to the reno\.ation project are presented in Appendix 2. As of the date
ofcompletion ofour audit. the project had cost S2 11,025 more than the funds made available
by the Legislature for the project. If we were to include the $395,846 still owed the
contractor (as the Legislature did in its schedule), the total cost overrun would have been
S606,87 1.




                                              13
                                                       APPEYDIX 1



               CLASSIFICATION OF MOSETARY AMOUXTS


                                               Funds To Be Put
                      Finding Areas             To Better Use*

     A. Procurement

         Contractor Services                        $244,275
         Roofing iMaterials                           20,036

     B. Project Planning and Management

         Project Planning
           Contract Change Orders                    757,363
           Cost Overrun                              211,025

         Total                                    $1,232,699




*,Amounts represent local funds.



                                          13
                                                                                                                              APPENDIX 2


                                                STATUS OF FUXDS FOR THE
                                           LEGISLATIXE REXOVATION PROJECT -
                                           OCTOBER 31, 1994, TO OCTOBER 31, 1997


   Cal. 1            Cal. 2            Co]. 3             Cal. 4             Cal. 5            Cal. 6’         Cal. ;**            Cal. 8*
                                                                         (Cols. 2-3-4)                                            (Co1 6-7)
                                                        Transfers                                             Ad\ antes              Total
   Ftscal          Beginning       Approprtattons      b\tthtn the        Total Funds           Total             to            Evpendltures
   Year             Balance       For Rcno\ atton      Leptslature         Ai ailable       E\pendttures      Contractor        and AdI antes

    1995                      0        s309.000          Sl 15,000          s4 15.000          5167,187                   0        S467.187

    1996            (S52,187)            550.000                   0         497,s 13            Sl8,787                  0         818,787

    1997            (320,974)           4503000                    0         129.026             2 I 1,267      s50,000             26 I.267

    1998            (132,241)                   9                  0                              ‘8.‘83         50.000              X.-84

  TOTAL                                                  15.000
                                                         S!                                  S 1.526.025       s 100.000         S 1.6’4.925




                              _
*The amounts shout-t in Columns 6 and 8 include 5524,387 of construction matertals purchased by the Procurement Office. Houeler, because the 5395 _:
balmce tSJ95,S16 mmus $i00,000 adlance pa>m rn:r due on the December 11, 1996. inic?t;e hd> not been paid, the S395.816 1s not tncludtzd as ;in ey:n: -_-

**The   ~~40   $50,000 payments were advances to the roofing contractor against the S-t95,8-16 incoice submitted on December 1 I, 1996.




                                                                               15
                                                                                                               APPESDIX 3


                                 SCOPE AXD COST OF WORK FOR THE
                                LEGISLATURE RENOVATIOIU PROJECT -
                                OCTOBER 31, 1994, TO OCTOBER 31, 1997


Contract Change     Date      Contract Change    ,4mount
  Order No.        Issued      Order .4mount       Paid                                       Dewlption


Imtial Contract   ioi31194         578,000         $78,000    To replace the chingles on the Senate and House Chamkrs.

    001-95        07120195           166.275       166,275    To repair the rmf on the Senate and House Chambers (the roof apex,
                                                              beams, and decking).

                                   $744.275       $244,275    Subtotals (initial roofing contract and related Change Order 001)


    OOZ-95        09125i95           53,ooo         44,725    To repair the roofs on the Guest Fale and Senate Office Building.

    003-95        12,106/95          67,000         67,000    To renovate the interior and exterior of the Guest Fale and the exterior
                                                              and portions of the interior of the Senate Office Bullding.

    00-J-96       Olt’31/96           19,888        19,888    To renovate the coffee room and restrooms of the Senate Office Building
                                                              and to repair the roofs of the cohered ualkuays and House Coffee Fale.

                                                              To coker the cost of labor and materials to replace the outslde wall and
    00-96         04,08/96          185,000        185,000    ongoing interior renovation of the Senate and House Chambers (per
                                                              contractor Invoices 111, 417. and 419,.

                                                              To coker the cosl of labor and materials to replace the outside wall and
    OQ6-96        05/17/96           80,000         80,000    ongoing interior reno\ation of the Senate and House Chambers (per
                                                              contractor Imolce 654).

                                                              To cover the cost of labor and materials to replace the outside wall and
    007-96        07,09:96          158,000        158,000    ongoing Interior renoiarion of the Senate and House Chambers (per
                                                              contractor In\ oice 154).

                                                              To coker the cost of labor and materials to replace the outslde n.all and
    008-96        08,22/96          180.000        180,000    ongoing interior renovation of the Serwz and House Chamhrs (per
                                                              contractor In\ once 655 j.

                                                              Subtotals (addltlonal uork based on Change Orders 002~tOO8)
                                   5742.888       S734.613
                                                              House Coffee Fale (direct payments to contractor based on imoices)
                                     22.750         22,750

                                                              Subtotals (erpaaion of reno\ ation preject)
                                   9765.638       $757.363
                                                              Grand Totals (entire renovation project)
                                 $1 ,oO9,913    $1 .OO1,638




                                                              16
                                                                  APPEZiDIX 4
                                                                  Page 1 of 9




                       AMERICAN SAMOA GOVERNMENT
                       PAGO PAGO, AMERICAN SAMOA 96799                   In reply rrfu to:

                       LEGISLATUREOFAKERICAN    SAMOA



                                                  July 09, 1998



Honorable Robert J. Williams
Acting Inspector General
Office of Inspector General
U.S. Department of the Interior
Washington, D.C.  20240


Subject:     Official Response of the Legislature of
             American Samoa on the Draft Audit Report
             No. N-IN-AMS-006-97, Office of Inspector
             General


Dear Mr.   Williams:

     We wish to acknowledge receipt of your draft audit report dated Way
1998, on the Legislature Renovation Project. Although we concur with some
of the findings and recommendations, we nevertheless disagree with the majority
of your report and findings.

     This is our official response to your audit findings. The report has
offered us an opportunity to revisit former Legislature leader's perseverance
and dete xmination.

     The Audit Report indicated that the Legislature did "not. use funds for
the renovation project effectively and efficiently.   It further questioned
whether the Legislature received full value of the money spent on the project.

     On the contrq, the Legislature fully enjoys its newly renovated buil-
dings.   It has provided a safe and better working environment for everyone.
The project also adds another 5 to 10 years of useful life to these old
deteriorated buildings. It further removes an emotional and physical hardship
experienced by Legislature leaders because of damages sustained from these
leaky buildings, which are over 20 years old.




                                     17
                                                                    APPEWDTX 4
                                                                    Page 2 of 9


Page 2
July 09, 1998
Honorable Robert J. Williams
_________________-__~~-~~~--~---~~-~~~~-~~~---   -__---__----_-__--__--------

     Finally, this year marks the first anniversary of the renovation project's
success.  It is time to reflect where the Legislature would have been housed
without the bold, brave and expedient decision by our former leaders to renov-
ate Legislature buildings.

                                    Respectfully,




LUTU T.S. F'UIMAONO
President of the Senate
Legislature of American Samoa
Pago Pago, American Samoa
                                          -m
                                          Speaker 0; the House of Representatives
                                          Legislature of American Samoa
                                          Pago Pago, American Samoa




                                .
                                     18
                                                                                  APPE’T3IX4
                                                                                  Page 3 of 9



                   LEGISLATURE OF A,MERICAN SAMOA
                            Legislature Renovation Project
                                   Official Response


Background
    The three most important factors behind the former President and Speaker’s decision
to immediately renovate Legisl3ture buildings Ltere: ( 1) to protect ths likes. health,
welfare and public safety. (2) to s3ke moneys which the Americ3n Samoa Government
requires to construct new Legislature Buildings (3) to preserve the most unique Samoan
architectural design as depicted on buildings uhich housed the Legislature of American
Samoa.

    The buildings were designed specific311>* to remind future generations of ,4merican
Samoa on the type of house used by our forefathers. The buildings sustained extensive
damages to the roofs. interior and exterior walls. and main beams - csposing electrical
wiring components by two previous deL3stating hurricanes-Ofa and Val in the early 90’s.

    In addition. the Legislature lost over S200.000 worth of computers. expensive office
equipments. materials and suppliers because of w3ter le3k.s through the roof. It
continually disrupted normal working conditions. let alone the effort made to constantly
replace drywall boards and ceilin,(’ lights in both Chambers. ‘4s you can see. the former
President and Speaker were confronted N ith these problems and unusual circumstances.
which resulted with “expediency”. 3s the only solution in preicnting further
deterioration and condemnation of Legislature buildings.

    FEM.4 offered some temporary relief only because the buildings were covered under
American Samoa Government’s property’ insurance. .\s of the date of this writing the
insurance’s liability has not yet settled. Further. Leaders of the Legislature were always
under the presumption that the Dttpartment of Public Works has the obligation to
maintain all government buildings and equipments.

    Immediately after the second Legislatke sessions of 1994. the former leaders of the
Legislature of American Samoa decided that talking is enough - it Nas time for actions.
The former President of the Senate ordered the Legislative Finance Officer to request the
Department of Public Works to perform 3 surve! inyentov of LegisIature’s buildings.
Specifically. the Chambers Building. Public Works findings and recommendations were
to condemn the building and do rcpl3cement because the structural damages xere beyond
repaired.

    The former President told Public Works’ Engineers that the government has no
money for a new building. than scolded them out of his office. and ordered the LFO to
find funds for the renovation. Since the beginning of the renovation project. there has




                                          19
                                                                                   APPENDIX 4
                                                                                   Page 4 of 9


been much controversy over the funding 3nd management of the project. Subsequently.
this audit eventually ensued.



STATEMENT OF FACTS
    There has been a great divergence of facts as recited by the auditor and those he
interviewed. but this much would appear to be relativeI>. clear and undisputed:

     During the early st3ge of the Le@slature’s Renovation Project. Former Leaders of the
Legislature on October 19. 1994 requested the Chief Procurement Officer for a Waiver of
The American Samoa Procurement Rules requiring competitive bidding on contractor
hiring.

   On November 4. 1994. the Governor of American Samoa approved the waiver and
invoked the “emergency procurement provisions * of the American Samoa code
                                                  l




Annotated.

      On November 14. 1994, the contractors began roof repairs. Once the rotten shingles
were removed and exposed the rotted beams. the roof apex. and the decking. the
Legislature under necessity expended the scope of work. It forced the Legislature to
issue a series of change orders and 3ppropriated more funds to cover additional work.
Furthermore. the Samoan Guest house. Sen3tor.s office building. coffee house for
Representatives. and waikways to the main office building were added to the renovation
list.

    All the Legislature buildings covered under the Renovation Project are standing tall
for their first anniversary with the Chamber Building estimated useful life to last for at
least another 10 to years. and the Guest Fale’s marble floor shall last for a lifetime.



Used of “Emergenw Procurement Provisions” was
not contrary to Gok’ernment Policy
      In essence. the Chief Executive 3nd Legislature leaders have 3lvv.ay.s recognized past
trend of indifference in both attitude and performance towards the Legislature of
American Samoa. Fortunately. the former Governor put aside these indifferences and
invoked the emergency Procurement pro\ isions under the American Samoa Code
Annotated to assist Legislature Lc3ders in this project. The Chief Executive seldom used
this emergency procurement pro\ ision. lie nevertheless used it sparingly and wisely on
this situation. This is evident in his letters 3nd directives to the Chief Procurement
Ot‘ficer and Legislature Leaders.




                                             j
                                           20
                                                                                  APPE?JlIX 4
                                                                                  Page 5 of 9


     The former President of the Qn3te w3s 3n old sage. He reasoned that a grave and
urgent need for an ample Chambers’ sp3ce. rental and rsloc3tion costs for Legislative
sessions. the supporting units and of‘tice equipment. pxking sp3ces. and let alone the
prohibitive cost of a new Chambers Buildin+ has left him with no choice but renovation.
And his only selected solution 3\ 3il3ble under the l3w is--to request the use of the
Emergency Procurement process.




cost

       The initial labor cost of ths Renov 3tion Project ~‘3s $78.000: materials were to be
purchased through the Procurement Office. This arrangement went well on papers.
However. the work was interrupted constantly because the Goiemment did not have
money to pay materials from some prisate vendors. This problem caused construction
delays and e\ entually forced Ls+lsture le3ders to write the former Governor on March
5, 1996. 3llowing the contractor to supply building materials.

    It is somewhat misleading b! m3ny critics that this $78.000 project has eventually
ended-up costing the Government I .6 million. Yes. the $78.000 labor cost was for re-
roofing of one Chamber Building. Howe\ er. the project was extended to include new
roof for the Senate office building. n<w remodel Samoa Guest Fale (house) with marble
floor. new walkways, new roof for the House Coffee Shop. and cement non-slippery
outside walkways.

    Further, it is important to know th3t the work called for the renovation to be done
piece by piece and exactly like the original building features. The only changes made
by the Contractor were: new designed walkways. outside carpet to a cinder-cement non-
slippery, walkway. plumbing system. and Guest Fall Marble floor. These additional
proposed scope of works required time and precision. The extra works were paid for
from a series of change orders citsd in ths 3udit report.

    Compare the $1.6 million total cost for the Renov.ation as envisioned by the former
President to a near reality estim3tss of $5 to $10 millions for a new Chambers Building as
recommended by Public Works engineers. plus relocation. time 3nd inconvenience. We
believe that we made a right 3nd less esptxxive choice- rsnov 3tion over a new building.



Conclusion
      To implement a project with little advance planning and urgency in nature. mistakes
are bound to happen. We confess that mist3kes were made b>. former lesaders in their
desperate effort to save Legisl3turc Buildings. These mistakes are part of our daily lives.
It is a price leaders pay in making difficult decisions. As leaders. we are constantly faced




                                           21
                                                                               APP ~!lJIX 4
                                                                               Page 4 of 9

with ch3llen~es. which forced ourstA~es to n13he difficult decisions. This is not a
question of whether difficult decisions sh3ll be rendered but a lesson Ie3med from the
consequences.

     Initially. a former speaker got ini olv ed in the procurement of shingles which
duplicated rooting m3teri3ls ordc:red b\v the Procurement Office. This was an error in
judgement cre3ted bq’ a verbal mis-communication between the former Speaker and
Gov,emor. Although the confusion m3de hc3dIine news. it turned out in favor of the
Legislature. This extra order of shim& 1~3s used to re-roof other buildings not covered
in the origin31 renovation plan.

    Finally. we learned a lot from this unprecedented Renovation Project of the
Legislature. This lesson has surtjcsd a need to create an official unit under the
Legislative Financial Office to speci tically 3ddress Legislature’s maintenance program.
stream line standard operation procedures. identify all rel3ted Government agencies that
deal with construction projects. and identify source of fundings for all Legislature
projects. These responsibilities 3nd needs will be identif?ed. and outlined in
recommend3t ion fi 1.




                                              5
                                         22
                                                                                                                                         APPENDIX 4
                                                                                                                                         Page 7 of 9




                                                        LEGISLATURE OF AMERICAN SAMOA
                                                              Legislature’s Renovation Project
                                                Activity Name: Scope of Work and Cost Allocation Statement
                                                            October 31, 1994 to October 31, 1997



Legislature Renovation Project:
    Total Appropriations ............................................................................................................... $ 1,415,ooo
               (a) 1995.. .......... $        415,000
               (b) 1996 ............          550,000
               (c) 1997 ............          450,000


        Cost Allocation:
         (1) Chambers Building Restoration:

               (a) restoring shingles of roof ......................................................... $ 78,000
               (b) restoring roof apex, decking 8 beams ........................................ 166,275
               (c) total labor and materials for complete
                restoration of the interior, exterior, plumbing
                and electrical systems ...............................................................       1,098,846
                                                                                                           $1,343,121
                                l   Less unpaid balance of final invoice ($495,846 - 100,000)                 395.846
                                                                                                                               947,275
         (2)    All other Buildings       Renovation:
               (a)  roof repairs of Senate office buildings and Guest Fale ................... S                53.000
               (b) renovate interior & exterior of Guest Fale and Senate building ........                      67,000
               (c) renovation of Senate office building, loungetiffee room,
               restrooms and repair roofs of covered         walkways ................................          19,888
               (d) renovate House coffee fale. furnishings, new restrooms and
               covered roof walkways ...... _. .........................................................        22.750
                                                                                                                               162,638              1,109,913
                                                                                                                                                S     305,087


   l   Unpaid balance of final invoice ............................................................................................... ......   S (395,846)
                        * Total alleged, supposed overexpenditures .............................................................
                            l                                                                                                                       (90,759)




                                                                                  23
                                                                                 APPEYDIX 4
                                                                                 Page 8 of 9




                          RECO.1Ii)IEd1’D.d TlO,VS/RESPO,\.‘SE



(0      Develop and implement written procedures to ensure that all procurements are
              made in accordance with the American Samoa Code Annotated.

        Response:      Concurrence.

        Completion Date:      December 31, 1998.

        Responsible Official: Legislative Finuncial Officer

       Amend the Rules of both the Senate and House to establish a joint committee
       for the purpose of periodically identifjqing the renovation and repair needs of
        the Legislature’s facilities:

       Response:       Nonoccurrence.

        Reasons:       Politicians shall be Xept out of non-political duties. It is evident
that the Legislature buildings should have never gotten into this rotten situation if a
section or office, within the Legislature wus charged with a responsibility of identi@ng
maintenance and repair needs. We believe that a joint committee of both chambers
cannot adequate@ provide this assistance. With constant turn-over of elected officials
and short session days (45 per session) required bi-anttual!r; a joint committee
recommendation may not be a best solution. In place, a section will be added under
the Legislarive Financial Office to deal direct/y with all Legislature properties,
procurement, new construction, repairs, renovation, and preventing maintenance. A
Legislative Financial Officer must prepare &n annual report to the President and
Speaker with regards to Legislature’s maintenance, repair and renoreation needs. This
report should include estimate costs, work plan, andfunding source.




                                          24
                                                                               APPE?I’DIX 4
                                                                               Page 9 of 9




(3)   Request tltat the Director of the Department of Public Works review the most
      recent invoice submitted by* the contractor to determine whether it is reasonable
      and reflects the costs incurred by* the contractor for the renovation of the Senate
      and House Chambers.

      Response:       Concurrence.

      Date: September 31, I998 before FYI 999.

      Responsible Official:     Director of Public U brks
                                Procurement officer
                                Legislative Financial Officer.


      Amend the Rules of both the Senate and House to require all Legislature
      renovation and construction work to be managed and inspected by the
      Department of Public 1j arks.

      Response:      .Von-concurrence.

      Reasons:      This is a duplication of effort because all government
      construction works, repuirs, and renovation jobs must be inspected by the
      Department of Public Works.      This policy also covered all works of the
      Legislature. This inspection requirement will be outline in written procedures
      as recommended in #I..


       Request that the Director of Public Works to inspect the renovated Legislature
      facilities to determine whether tlte construction work is in contpliance with the
      American Samoa Uniform Building Code.

      Response:      Concurrence.

      Time:          September 3 I, 1998.

      Responsible Officials:                Director of Public Works
                                     Legislative Financial OfJcet




                                         25
                                                                   APPEX-DIX 5
                                                                     Page 1 of 2


    STATUS OF AUDIT REPORT RECOMMEXD~4TIONS


Finding/Recommendation
       Reference            Status                  Action Required

         A.1             Resolved; not   The recommendation will be referred
                         implemented.    to the ,4ssistant Secretary for Policy,
                                         Management and Budget for tracking
                                         of implementation. However, when
                                         completed, a copy of the written
                                         procedures should be provided to our
                                         office.

         B.l             Resolved; not   The recommendation will be referred
                         implemented.    to the Assistant Secretary for Policy,
                                         Management and Budget for tracking
                                         of implementation. However, when
                                         completed, a copy of the Department
                                         of Public Works cost analysis of the
                                         final invoice should be provided to
                                         our office.

         B.2             Resolved; not   The recommendation will be referred
                         implemented.    to the ,4ssistant Secretary for Policy,
                                         Management and Budget for tracking
                                         of implementation. However, when
                                         completed, a copy of the Department
                                         of Public Works inspection report
                                         should be provided to our office.

         B.3             Management      Provide the target date and the title of
                         concurs;        the official responsible for submitting
                         additional      legislation to amend the law
                         information     establishing the Legislative Financial
                         needed.         Officer to make that official
                                         responsible for the oversight of the
                                         building renovation and repair nesds
                                         of the Legislature.




                                 26
                                                                APPENDIX 5
                                                                  Page 2 of 2



FindingRecommendation
       Reference           Status                .4ction Required

         B.4            Management    Provide the target date and the title of
                        concurs;      the official responsible for developing
                        additional    and implementing new procedures to
                        information   ensure that the Department of Public
                        needed.       Works is involved in the supervision
                                      and inspection of renovation and
                                      construction work for Legislature
                                      buildings.




                              27
                  ILLEGAL OR WASTEFUL ACTIVITIES
                    SHOULD BE REPORTED TO
              THE OFFICE OF INSPECTOR GENERAL BY:

Sending written documents to:                                     Calling:



                     Within the Continental United States

U.S. Department of the Interior                         Our 24-hour
Office of Inspector General                             Telephone HOTLINE
1849 C Street, N.W.                                     l-800-424-508 1 or
Mail Stop 5341          -                               (202) 208-5300
Washington, D. C. 20240


                                                        TDD for hearing impaired
                                                        (202) 208-2420 or
                                                        l-800-354-0996


                     Outside the Continental United States

                                     Caribbean Retion

U.S. Department of the Interior                         (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22201

                                    North Pacific Retion

U.S. Department of the Interior                         (67 1) 647-605 1
Office of Inspector General
North Pacific Region
4 15 Chalan San Antonio
Baltej Pavilion, Suite 306
Tarnuning, Guam 96911
Toll Free Numbers:
 l-800-424-5081          E
 TDD l-800-354-0996
                         i
                         5
FE/Commercial Numbers:
 (202) 208-5300
 TDD (202) 208-2420      E

 HOTLINE i.
1849 C Street, N.W.      E
                         E
Mail stop 5341
Washington, D.C. 20240
